TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Internal Revenue Service and
                    Contractors Are Generally Following
                 Procedures Established for the Private Debt
                 Collection Program, but Improvements Are
                                  Needed



                                      September 10, 2008

                              Reference Number: 2008-30-157




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 10, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Internal Revenue Service and Contractors
                                Are Generally Following Procedures Established for the Private Debt
                                Collection Program, but Improvements Are Needed
                                (Audit # 200730009)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Private
 Debt Collection Program (the Program). This audit was initiated because several parties,
 including members of Congress and the National Taxpayer Advocate, had expressed concerns
 regarding the risks involved in contracting out tax collection activity. These risks include the
 potential for disclosure of taxpayer information and violation of taxpayer rights. The overall
 objective of this review was to determine whether the IRS and contractors have been following
 required procedures in the Program since implementation on September 7, 2006. This audit was
 conducted as part of the Treasury Inspector General for Tax Administration Fiscal Year 2007
 Annual Audit Plan.

 Impact on the Taxpayer
 The Internal Revenue Code1 authorizes the IRS to enter into contracts with private collection
 agencies (hereafter referred to as PCAs or contractors) to assist in the collection of delinquent
 Federal taxes. Although many of the Program procedures were being followed, improvements
 can be made in how a taxpayer’s identity is authenticated, how contractors handle taxpayer
 requests to opt out of the Program, the quality control system, and case processing. These
 improvements will help ensure that taxpayer rights are protected during the collection process.


 1
     26 U.S.C. Section 6306 (2004).
                      The Internal Revenue Service and Contractors Are Generally
                    Following Procedures Established for the Private Debt Collection
                                Program, but Improvements Are Needed



Synopsis
As of September 30, 2007, the gross accounts receivable owed to the IRS totaled almost
$290 billion. On October 22, 2004, the President signed the American Jobs Creation Act of
2004,2 which created new Internal Revenue Code Section 6306 (2004) to permit PCAs to help
collect Federal tax debts.
This review did not address whether the Program has been successful or whether the policy to
use PCAs is appropriate. The IRS, at the recommendation of the Government Accountability
Office, is in the process of conducting a cost-effectiveness study to determine the Program’s
effectiveness and its impact on the overall collection of delinquent taxes. This review focused on
compliance with IRS and contractor procedures for administering the Program.
Overall, the IRS and contractors have generally taken actions consistent with the procedures
developed for the Program. For example, the IRS and the PCAs generally followed required
procedures for recalled accounts,3 took appropriate actions to obtain full payment from
taxpayers, and took timely and appropriate actions to address reported complaints. The IRS
properly implemented the initial inventory selection criteria and adequately conducted the
closeout review of the PCA whose contract ended on March 8, 2007. In addition, the PCAs
appropriately monitored installment agreements with taxpayers for default conditions and
adequately met quality standards during telephone calls with taxpayers.
While the IRS and contractors appropriately handled several processes, we identified some
issues that needed to be addressed:
      •    The IRS and the PCAs were inconsistent about what issues they considered to be
           complaints.
      •    The Complaint Panel’s role was not defined.
      •    Contractors were not always able to verify the identity of the taxpayer over the telephone.
           When a taxpayer cannot or will not provide the necessary information to verify his or her
           identity, the contractor cannot discuss the taxpayer’s account or request payment to
           resolve the tax delinquency.
      •    Quality review skip intervals were improperly calculated and applied, which affected the
           reliability of the results.
      •    The results of quality reviews were unreliable because quality review sampling
           methodologies were merged, results were not properly weighted, telephone monitoring
           and case action reviews were not conducted on a regularly scheduled basis, and the

2
    Pub. L. No. 108-357, 118 Stat. 1418.
3
    See Appendix IV for a glossary of terms.
                                                                                                      2
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed


       quarterly sampling requirements were not met for telephone monitoring and case action
       reviews. Also, the semiannual meeting with the Statistics of Income Division staff to
       assess the results and modify the sampling plan was delayed by 6 months.
   •   Taxpayer requests to opt out of the Program were inconsistently processed.
   •   PCAs properly established installment agreements but did not always document certain
       actions.
   •   The Taxpayer Advocate Service (TAS) did not always properly code cases on its
       computer system. Also, TAS case advocates did not always meet requirements for
       notifying Contracting Officer’s Technical Representatives of TAS activity on cases. In
       addition, the IRS and the PCAs did not properly track and process some TAS cases.
After we brought these issues to the attention of IRS management, they took corrective actions to
address the conditions. However, the following issue requires further management action: the
contractors administered the taxpayer satisfaction surveys to the taxpayers, which could
influence the results and produce low participation rates.

Recommendations
We recommended that the Director, Collection, Small Business/Self-Employed Division:
   •   Continue to monitor each contractor’s authentication process and continue to implement
       improvements as necessary to assist contractors in increasing the number of authenticated
       taxpayer contacts.
   •   Ensure that the Quality Unit 1) continues to provide weighted estimates of quality for
       external reporting purposes and for determining sample sizes, 2) continues to conduct
       quality reviews on a regularly scheduled basis, 3) continues to certify that the quality
       analysts meet with the Statistics of Income Division staff semiannually, and
       4) establishes a plan for backup quality analysts to conduct reviews as needed and
       continues oversight of the process.
   •   Identify and evaluate factors producing the low taxpayer satisfaction survey response rate
       and identify how to improve the response rate; explore alternatives to obtaining
       participation from taxpayers who hung up, got disconnected, or were not solicited for
       participation; and require quality analysts to evaluate contractor calls with taxpayers for
       undue influence by the PCA representative when following the prescribed scripts for
       soliciting participation in the survey.




                                                                                                  3
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



Response
The IRS agreed with our recommendations and has already taken the following corrective
actions: 1) improved the taxpayer authentication process; 2) ensured the availability of weighted
estimates of quality, ensured that daily telephone reviews are conducted as mandated by the
sampling plan and that the sampling plan is confirmed with the Statistics of Income Division
quarterly, and ensured that meetings are held with the National Quality Review System staff and
the Statistics of Income Division staff to revalidate sample sizes and address any necessary
adjustments to the sampling plan; 3) implemented a revised backup plan to ensure that
continuous reviews are conducted and sampling plan requirements are met, and held and will
continue to hold weekly conference calls between management and the quality analyst staff; and
4) revised the taxpayer satisfaction survey methodology and the quality analyst review to include
whether the contract representatives solicit the survey in an unbiased manner, and the Policy and
Procedures Guide to reflect changes.
Actions still being addressed include the following: 1) adding to the national webpage a link that
will assist taxpayers in verifying whether the PCA calling them is an approved contractor, and
revising the Policy and Procedures Guide for PCAs as it relates to the authentication process;
2) revising the Oversight Quality Handbook to capture changes made; and 3) forming a team to
explore ways to improve the taxpayer satisfaction survey participation rate. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                                 4
                      The Internal Revenue Service and Contractors Are Generally
                    Following Procedures Established for the Private Debt Collection
                                Program, but Improvements Are Needed




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service and Private Collection Agencies Took
          Appropriate Actions Related to Many Program Processes...........................Page 4
          The Complaint and Concern Process Needs Clarification............................Page 6
                    Recommendation 1:........................................................Page 9

          Quality Review Results Are Not Statistically Valid.....................................Page 9
                    Recommendation 2:........................................................Page 12

                    Recommendation 3: .................................................................. Page 13

          The Process for Requesting Participation in the Taxpayer
          Satisfaction Survey Could Be Improved.......................................................Page 13
                    Recommendation 4:........................................................Page 16

          Improvement Is Needed for Processing Certain Case Actions.....................Page 16

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 23
          Appendix II – Major Contributors to This Report ........................................Page 27
          Appendix III – Report Distribution List .......................................................Page 28
          Appendix IV – Glossary of Terms................................................................Page 29
          Appendix V – Details of Identified Complaints and Concerns ....................Page 31
          Appendix VI – Management’s Response to the Draft Report ......................Page 34
             The Internal Revenue Service and Contractors Are Generally
           Following Procedures Established for the Private Debt Collection
                       Program, but Improvements Are Needed




                            Abbreviations

COTR                 Contracting Officer’s Technical Representative
FDCPA                Fair Debt Collection Practices Act
IRS                  Internal Revenue Service
PCA; contractor      Private Collection Agency
SOI                  Statistics of Income
TAS                  Taxpayer Advocate Service
                     The Internal Revenue Service and Contractors Are Generally
                   Following Procedures Established for the Private Debt Collection
                               Program, but Improvements Are Needed




                                             Background

On October 22, 2004, the President signed the American
                                                                 One objective of the Private
Jobs Creation Act of 2004,1 which created new Internal          Debt Collection Program is to
Revenue Code Section (§) 6306 (2004) to permit private         use private collection agencies
collection agencies (hereafter referred to as PCAs or         to help collect the $290 billion in
contractors) to help collect Federal tax debts. The law           taxes owed to the Federal
allows PCAs to locate and contact any taxpayer                          Government.
specified by the Internal Revenue Service (IRS), to
request from such taxpayer full payment of the amount
of Federal tax due, and to obtain financial information with respect to such taxpayer. The law
allows the IRS to pay an amount not in excess of 25 percent of the amount collected by each
PCA for the cost of services performed under a contract.
The gross accounts receivable amount owed to the IRS has been very large for many years (it
totaled almost $290 billion as of September 30, 2007). To help address this tax debt inventory,
the Department of the Treasury proposed that Congress pass legislation authorizing the IRS to
use PCAs to help collect tax debts for simpler types of cases. The IRS refers to this effort as the
Private Debt Collection Program (the Program).
The IRS believes that cases have a higher probability of collection when taxpayers are contacted.
The PCAs are assigned cases that the IRS would otherwise be unable to work because of its
limited resources. The IRS established three main objectives for the Program:
      •    Help significantly reduce the growing number of uncollected tax liabilities.
      •    Help maintain taxpayer confidence in the fairness of the tax system by assisting the IRS
           in addressing more of its delinquent accounts.
      •    Assist the IRS in its continued focus to dedicate existing collection and enforcement
           resources on more difficult cases and issues.
The legislation requires the provisions of the Fair Debt Collection Practices Act2 (FDCPA) to be
applied to the PCAs. The law also prohibits PCAs from committing or omitting any act that IRS
employees are prohibited from in the performance of similar services. In addition, the legislation
created Internal Revenue Code § 7433A (2004) to permit civil actions by taxpayers for
unauthorized collection actions by employees of the PCAs. The law also amended § 1203 of the


1
    Pub. L. No. 108-357, 118 Stat. 1418.
2
    15 U.S.C. §§ 1601 note, 1692-1692o (2000).
                                                                                              Page 1
                   The Internal Revenue Service and Contractors Are Generally
                 Following Procedures Established for the Private Debt Collection
                             Program, but Improvements Are Needed



IRS Restructuring and Reform Act of 19983 relating to termination of employment for
misconduct to include employees of PCAs, if such individuals committed any act or omission
described under subsection (b).
The IRS requires that contractors comply with all taxpayer protections and prohibits them from
threatening or intimidating taxpayers, or otherwise suggesting that enforcement action will or
might be taken, if a taxpayer does not pay the liability. The contractors must also adhere to all
security and privacy regulations for systems, data, personnel, and physical security, and all
taxpayer rights and protections.
On March 9, 2006, the IRS awarded contracts to 3 firms from a field of 33 for the first phase of
the Program. On September 7, 2006, the IRS placed an initial inventory of 11,562 balance-due
accounts with the 3 contractors. While the contract for one of the PCAs ended in March 2007,
the IRS has twice renewed the contracts for the other two PCAs. As a result of the most recent
renewal in March 2008, the Program will continue into March 2009.
This review did not address whether the Program has been successful or whether the policy to
use PCAs is appropriate. In May 2004, the Government Accountability Office recommended a
comprehensive study of the Program to ensure that the IRS is making the most effective and
cost-efficient use of total resources available. In response, the IRS Commissioner agreed to
complete a study to determine the Program’s effectiveness and its impact on the overall
collection of delinquent taxes. The Government Accountability Office agreed that the results of
the cost-effectiveness analysis would be provided as soon as practical after full Program
implementation, which began when the new contracts were awarded in March 2008. The
Cost-Effectiveness Study final report is scheduled to be issued in August 2008.
We previously reported4 that the IRS needs to continue monitoring inventory levels to ensure that
the volume of cases available for placement is sufficient. The IRS agreed with our
recommendation and reaffirmed its commitment to monitoring the Program and to make any
changes necessary to maximize the effectiveness of its strategy. Since then, the IRS has
continued to explore options for other potential inventory by testing the placement of additional
case types, including Taxpayer Delinquency Investigations5 and various Automated Collection
System cases. The challenge of identifying additional sources of cases will continue as the
inventory of current case types is exhausted.
In the same report, we also noted that the predicted collection rate used by the IRS is higher than
the industry standard. IRS research of Federal and State Government agencies reflected an
average collection rate of less than 3 percent. However, the IRS had predicted a collection rate

3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C. , 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  Management Needs to Continue Monitoring Some Case Selection Issues As the Private Debt Collection Program
Is Implemented (Reference Number 2006-30-064, dated April 2006).
5
  See Appendix IV for a glossary of terms.
                                                                                                     Page 2
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



of 10 percent to 15 percent once it and the PCAs reached optimum performance and
productivity. The IRS agreed with our recommendation to continue updating revenue
projections to ensure that it appropriately accounts for the actual collection rate achieved. As the
IRS predicted, the collection rate increased early in the Program. However, after 6 months, the
collection rate steadily declined each month from a peak of 11.7 percent in January 2007 to
5.1 percent in February 2008. Based on this trend, it is important that the IRS continue
monitoring the actual collection rate and updating the revenue projections.
This review was performed in the IRS Small Business/Self-Employed Division in
New Carrollton, Maryland, and Kansas City, Missouri, and in the contractor worksites of
Pioneer Credit Recovery, Inc. in Perry, New York; Linebarger Goggan Blair & Sampson LLP in
Austin and San Antonio, Texas; and The CBE Group Inc. in Waterloo, Iowa, during the period
April 2007 through February 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A Glossary of Terms is included in
Appendix IV.




                                                                                             Page 3
                The Internal Revenue Service and Contractors Are Generally
              Following Procedures Established for the Private Debt Collection
                          Program, but Improvements Are Needed




                               Results of Review

The Internal Revenue Service and Private Collection Agencies Took
Appropriate Actions Related to Many Program Processes
Overall, the IRS and contractors have taken appropriate measures to address many of the
Program processes. Specifically:
   •   The initial inventory selection criteria were properly implemented. To qualify for
       the Program, a case had to involve an individual taxpayer with a balance due for 1 tax
       period, and the amount due had to be less than $25,000. The IRS initially assigned
       11,562 balance-due accounts to the PCAs on September 7, 2006. From this population,
       we selected and reviewed a statistical sample of 73 balance-due accounts to determine
       whether account data matched the initial inventory selection criteria. All of our sample
       cases met the selection criteria.
   •   Procedures were generally followed when cases were recalled. A total of
       3,177 taxpayer accounts were recalled to the IRS from the Program on
       September 7, 2006, through March 30, 2007. From this population, we selected and
       reviewed a random sample of 30 cases and determined that the IRS and the PCAs
       generally followed required procedures for recalled accounts.
   •   Procedures were properly followed for fully paid cases. A total of 3,356 taxpayer
       accounts were paid in full from September 7, 2006, through March 29, 2007. From this
       population, we selected and reviewed a random sample of 30 taxpayers to determine
       whether the IRS and the PCAs followed required procedures. IRS procedures include
       posting payments to taxpayer accounts and providing account update information to the
       PCAs. PCA procedures include requesting full payment from the taxpayer and
       monitoring account update information to identify payments received. The IRS and the
       PCAs properly followed procedures for the 30 fully paid accounts in our sample.
   •   PCAs were appropriately monitoring defaulted installment agreements. When
       PCAs establish installment agreements with taxpayers, they are required to monitor the
       cases for payment compliance. Two conditions will cause a PCA-monitored installment
       agreement to default: the failure of the taxpayer to make scheduled installment
       agreement payments or the presence of a new balance due related to another tax period.
       We obtained default lists from each PCA and selected and reviewed a judgmental sample
       of 30 taxpayers who had defaulted. We determined that the PCAs were appropriately
       monitoring these taxpayers.

                                                                                          Page 4
                   The Internal Revenue Service and Contractors Are Generally
                 Following Procedures Established for the Private Debt Collection
                             Program, but Improvements Are Needed



    •   Actions taken to address reported complaints were timely and appropriate. Upon
        receipt of a complaint, the contractors are required to immediately stop collection action.
        In addition, they must provide a copy of the collection activity record on the account and
        any other relevant information to the Contracting Officer’s Technical Representative
        (COTR) by the following business day. Our review of the Complaint Panel meeting
        minutes and the contractors’ complaint logs identified 101 reported incidents6 occurring
        between September 7, 2006, and August 1, 2007. This represents less than 0.2 percent of
        the 58,155 accounts placed with the PCAs during roughly the same period. The cases
        included instances when the taxpayers, the taxpayers’ representatives, or other third
        parties expressed concern regarding the authentication process, the calling practices, or
        other interactions with the contractors. The cases also included inadvertent disclosure of
        taxpayer information and other contract concerns. Details are provided in Appendix V.
        The actions taken to address these incidents were both timely and appropriate. In
        general, the contractors stopped collection actions on taxpayers’ accounts in a timely
        manner when required; the contractors provided timely notice to the COTRs when they
        became aware of complaints as required; and the contractors, COTRs, and Complaint
        Panel7 evaluated the nature of the complaints, determined whether actions by the
        collectors and contractors were in accordance with procedures, and determined whether
        actions (if necessary) were appropriate to prevent future complaints.
        Further, our review showed that in 98 of the 101 incidents, the contractors followed
        IRS-approved collection practices, the actions were inadvertent, or no information was
        identified to substantiate the incident. In just three instances, the IRS considered the
        actions to be a significant contract concern and appropriately imposed a penalty as
        allowed under the contract.
    •   The quality of contractor calls was adequate. We monitored 50 telephone calls (25 for
        each of the 2 PCAs that remain under contract) received or placed by the contractors
        during our onsite visits in July and August 2007.8 Overall, the quality of the calls we
        monitored was adequate. In our sample cases, the contractors’ representatives were clear,
        professional, and courteous. The representatives appropriately conducted authentication
        actions to determine that they were speaking to the appropriate party, discussed payment
        alternatives when warranted, and documented the calls on the contractors’ systems.



6
  Due to inconsistencies in the definition of a complaint and the self-reporting nature of complaints, we cannot
provide assurance of the reliability of this count.
7
  As discussed later in the report, 20 of the 101 cases were included on the contractor’s complaint log but were
categorized by the IRS as authentication concerns. These cases were not discussed by the Complaint Panel but were
reviewed by the COTR.
8
  The dates of the calls monitored were July 9, 2007, for one contractor, and August 7 and 8, 2007, for the other
contractor.
                                                                                                         Page 5
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



   •   The process for ending operations at a PCA whose contract expired was adequate.
       The contract for one of the PCAs ended in March 2007. The IRS conducted a closeout
       review of this PCA in May 2007. The IRS ensured that the PCA developed and took
       appropriate measures relating to the disposal, destruction, return, and safeguarding of
       Federal tax information under the PCA’s control pursuant to the completion of its
       contract with the IRS.
While the IRS and contractors appropriately handled these processes, we identified some issues
that need to be addressed.

The Complaint and Concern Process Needs Clarification
The IRS has a process for handling taxpayer complaints about its employees. Such complaints
are reported to several IRS functions for tracking on management information systems.
Similarly, contracts with the PCAs include a process for handling complaints, including
provisions for the imposition of a payment deduction (i.e., a penalty) for a complaint that is
validated. As previously discussed, the contractors’ actions to address complaints identified
were timely and appropriate. However, the IRS and the contractors were inconsistent about what
issues they considered to be complaints. The IRS needs to clarify how contractors should
classify complaints and the role of the Complaint Panel. In addition, continued management
attention is needed to evaluate solutions to taxpayers’ reservations with the authentication
process.

The IRS and the PCAs were inconsistent about what issues they considered to be
complaints
As a result of unclear guidance defining complaints, the IRS and the contractors were
inconsistent about what they considered to be complaints. As previously discussed, our
review of the Complaint Panel meeting minutes and the contractors’ complaint logs identified
101 incidents occurring between September 7, 2006, and August 1, 2007. However, the Program
considered only 81 of the 101 incidents to be complaints. The remaining 20 cases were included
on the contractor’s complaint log but were categorized by the Program as authentication
concerns rather than complaints and were not reviewed by the Complaint Panel. Our review of
these 20 cases showed:
   •   3 (15 percent) involved taxpayer representatives (authorized and not authorized) who
       expressed concerns, including a concern over the clarity of the contractor’s letter sent to
       authorized taxpayer representatives. The IRS considered a similar issue to be a complaint
       for the other contractor. These cases do not appear to involve authentication concerns.




                                                                                           Page 6
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



   •   17 (85 percent) involved taxpayers who expressed concern about the authentication
       process. Treatment of these 17 cases was inconsistent with that given to similar cases
       that were included as complaints. However, the Program has expanded the definition of
       this issue to include all refusals to authenticate and has taken significant actions in this
       area.
In addition, the contractors have inconsistent interpretations of what represents a complaint. At
one contractor, calls in which the taxpayer sounds irate or indicates a desire to file a complaint
are forwarded to the next-level supervisor and are classified as complaints. At the other
contractor, if such a call is favorably resolved by the next-level supervisor, the instance is not
classified as a complaint. However, the next section of this report discusses corrective action the
IRS has taken that should improve the consistency of complaint classification and identification.

The role of the Complaint Panel has been defined
Program management identified the need to provide assistance and consistency to the COTRs in
complaint validation, penalty determinations, and the overall execution of the contract. The IRS
established the Complaint Panel to perform that role, but a panel charter that outlined the role
and responsibilities of the Complaint Panel was not completed at that time. For example, the
Complaint Panel needed to decide what types of complaints warrant its attention. The IRS
categorized 66 (81 percent) of the 81 complaints as Type One complaints. These cases do not
result in contract penalties unless they are elevated to a higher complaint level. Without a clear
vision of the purpose of the Panel, contract administration time might not be effectively used.
Management Action: After we brought these issues to management’s attention, they took
corrective action by issuing a Complaint Panel Charter in January 2008. The Charter further
defines complaints and the purpose of the Panel to include:
   •   Ensuring the consistency of adjudication of complaints as contract violations.
   •   Reviewing Type One complaints for trends and, when necessary, recommending
       improvement processes.
   •   Evaluating Type Two and Type Three complaints for purposes of validation and, when
       necessary, recommending assessment of penalties.

Continued monitoring of the authentication process is needed
When a taxpayer cannot or will not provide the information necessary to verify his or her
identity, the contractor cannot discuss the account or request payment to resolve the tax
delinquency. A majority of the complaint cases (52 of 101) involved the authentication process.
IRS management and the contractors identified the authentication process as a concern. In
June 2007, the IRS began tracking instances in an authentication concern log. The log showed
1,385 occasions in which taxpayers refused to provide the contractors with information needed to

                                                                                             Page 7
                    The Internal Revenue Service and Contractors Are Generally
                  Following Procedures Established for the Private Debt Collection
                              Program, but Improvements Are Needed



authenticate their identity during the 3-month period from July through September 2007. There
were another 368 instances9 in which taxpayers were unable to authenticate. In comparison, our
review showed 9,013 instances in which right-party contacts were made. This represents a ratio
of approximately 16 authentication concerns for every 100 taxpayers contacted.10
The IRS has taken a number of actions to improve the contractors’ abilities to locate and
authenticate taxpayers, including:
     •   Providing contractors with the taxpayer’s date of birth information that can be used as an
         alternative to the taxpayer’s complete address during the authentication process. This
         helps to authenticate taxpayers who are unable to provide an exact match to the address
         of record.
     •   Performing a pilot project on the use of postal tracers to assist contractors in locating the
         correct taxpayer.
     •   Issuing a certified initial contact letter to taxpayers who refuse to authenticate and who
         indicate that they had not received the initial contact letter.
     •   Issuing a letter to taxpayers who refuse to authenticate but who indicate that they have
         received the initial contact letter.
     •   Providing the contractors with the taxpayer’s last known telephone number(s), when
         available, to assist contractors in locating the correct taxpayer.
In October 2007, IRS management also obtained an IRS Office of Chief Counsel opinion
allowing the contractors to disclose that they are calling on behalf of the IRS during the
authentication process in certain circumstances. This should help to alleviate concerns for those
taxpayers who might be unfamiliar with the business names of the contractors. Program
management informed us that they have developed measures to evaluate these improvements in
the authentication process. Because some of these actions are still in development, the IRS
needs to closely monitor authentication matters to identify emerging issues and to make
improvements.




9
  This count could include the same taxpayer(s) due to subsequent attempts to make contact.
10
   In our analysis, we include repeat contacts with taxpayers who refused to authenticate, taxpayers who were unable
to authenticate, and right-party contacts. This was done for consistency with the number of right-party contacts
discussed elsewhere in this report. The ratio was calculated as ((1,385+368)/(1,385+368+9,013)) X 100. This ratio
does not include other contact types such as a wrong number or when the taxpayer was currently unavailable.
                                                                                                            Page 8
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



February 2007 when the Quality Unit started obtaining its sample using a new selection method
that was not previously available.
In addition, the Quality Unit implemented and combined 2 different sampling methods during
the first 6 months of the Program. According to the Internal Revenue Manual, different samples
should never be merged because doing so could cause biased results. Although the Quality Unit
has been proactive at improving the quality case selection process, it did not consider when a
new process should be implemented. Because the Quality Unit plans to continue using the
sampling methodology implemented in 2007, additional corrective action is not necessary.
However, if the Quality Unit identifies an improved method for case selection, it should
coordinate with the SOI Division staff to ensure that implementation is executed appropriately.

Improvements are still needed in the Quality Review Program
While the IRS has taken some corrective actions, we identified concerns that require further
management attention. Specifically, the Quality Unit did not:
   •   Consider the relative weight of each sample with respect to the entire population.
   •   Conduct telephone monitoring and case action reviews on a regularly scheduled basis or
       select a sufficient sample size in each quarter of the fiscal year.
   •   Regularly meet with the SOI Division to assess results and adjust sampling plans.
Weighting the samples. According to the Internal Revenue Manual, weighting should be used
to ensure that every sampled case has the appropriate amount of influence on the overall
cumulative estimate of quality. Estimates that combine more than one site are not considered
statistically valid if they are not weighted. However, management did not consider the issue of
weighting when the Program was developed. To provide weighted estimates of quality, at our
suggestion, the IRS has required the quality analysts to input inventory volumes for case action
reviews and telephone monitoring since October 1, 2007. However, the Quality Unit continued
to provide management with unweighted estimates. After we brought this issue to
management’s attention, the Quality Unit began providing management with both unweighted
and weighted estimates in February 2008.
Telephone monitoring and case action reviews. The quality analysts did not meet the
requirement to monitor five telephone calls per day for either PCA, which could cause biased
results. Through June 2007, the goal was met only 33 days for 1 PCA and 47 days for the other,
during the approximately 180 workdays since Program inception. The quality analysts indicated
that it is sometimes difficult to meet the requirement due to the amount of time they spend
performing other duties, and there are no backup quality analysts to fill in when needed. Further,
one of the PCAs provides secure dial-up capabilities for telephone monitoring reviews, but it



                                                                                            Page 10
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



available. The 270-case sample size went into effect October 1, 2006, and new sample sizes
should have been implemented in April 2007.
In August 2007, we informed IRS management that the quality analysts had not met with the
SOI Division staff to recalculate the sample size. Management indicated that they did not want
to make changes to the requirements during the first year of the Program. However, after the
quality analysts met with the SOI Division staff, the quarterly sample size requirements for
telephone monitoring and case action reviews were reduced from 270 to 120 and 98,
respectively, beginning October 1, 2007. If the quality analysts had met with the SOI Division
staff when recommended, they could have reduced their required sample sizes earlier. They
might also have been able to implement changes necessary to lessen the effect of
noncompliance with quarterly sample size requirements previously discussed in this report.
The Quality Unit provided the SOI Division staff with an unweighted quality rate of 95 percent
to calculate the new sample size requirements. Using this rate, the sample size requirements for
telephone monitoring and case action reviews would have been 60 and 53, respectively.
However, because unweighted quality results are not considered statistically valid, the
SOI Division staff had to use a more conservative quality rate of 90 percent in their sample size
calculations, which generated higher sample size requirements of 120 and 98 for telephone
monitoring and case action reviews, respectively.
Further, as previously discussed, the quality review sampling methodologies were merged,
monitoring was not conducted on a regularly scheduled basis, and quality analysts did not meet
the quarterly sample size requirements for telephone monitoring and case actions reviews.
However, an SOI Division representative advised us that the conservative estimate of 90 percent
did not take these issues into account because the SOI Division staff were not made aware of
them at the time by the quality analysts. The SOI Division representative stated that they would
have used an even more conservative estimate to generate the required sample sizes if they had
known about these issues.
Management Action: Since we brought these issues to IRS management’s attention, quality
analysts have held quarterly and semiannual meetings with the SOI Division staff to review the
quality results and sampling plans during the period September 2007 through March 2008.
While no additional adjustments to the sampling plan have been necessary, the Quality Unit
should continue this process to assure that quality review results are statistically valid.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should ensure that the Quality
Unit:
Recommendation 2: Continues to provide statistically valid, weighted estimates of quality
for external reporting purposes and for determining sample sizes, continues to conduct the

                                                                                          Page 12
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



required number of case action reviews on a regularly scheduled basis to permit weighting of
quality estimates and prevent biased results, and continues to ensure that the quality analysts
meet with the SOI Division staff semiannually to recalculate the sample size required for each
PCA and make any necessary adjustments to the sampling plan.
       Management’s Response: The IRS agreed with the recommendation. As noted in
       the report, the Director, Collection, Small Business/Self-Employed Division, has already
       taken actions to ensure 1) the availability of weighted estimates of quality, 2) that daily
       telephone reviews are conducted as mandated by the sampling plan, 3) that the sampling
       plan is confirmed with the SOI Division quarterly, and 4) that meetings are held with
       National Quality Review Staff and the SOI Division staff (monthly and quarterly,
       respectively) to revalidate sample sizes and address any necessary adjustments to the
       sampling plan. The Director intends to revise the Oversight Quality Handbook to capture
       changes in the sampling methodology, schedule, and coordination with the SOI Division.
Recommendation 3: Establishes a procedure for backup quality analysts to conduct
telephone monitoring and case action reviews, as needed, and continues oversight of these
processes to ensure that sample size requirements are met.
       Management’s Response: The IRS agreed with the recommendation. The Director,
       Collection, Small Business/Self-Employed Division, has implemented a revised backup
       plan to ensure that continuous reviews are conducted and sampling plan requirements are
       met. Also, management now holds weekly conference calls with the quality analyst staff
       to 1) ensure that sample size requirements are met, 2) verify that the backup plan
       implemented is sufficient, and 3) ensure that reviews captured are on track to meet
       sampling plan requirements. The quality analyst staff will submit a weekly report to
       management to show that daily targets for telephone reviews were met. The Director
       intends to revise the Oversight Quality Handbook to capture these changes.

The Process for Requesting Participation in the Taxpayer Satisfaction
Survey Could Be Improved
The IRS contracted with a consulting company to perform a survey of taxpayers, or their
representatives, to gauge their satisfaction with the contractors. This measure is also used as part
of the IRS methodology to evaluate the contractors’ performance. Currently, the survey is to be
offered to every right-party contact. However, the contractors’ representatives who handle the
calls are also responsible for offering the survey. This creates the potential for the
representatives to bias the results. While we found no evidence that bias occurred, we did
identify instances in which some right-party contacts did not have the opportunity to participate
in the survey (e.g., the taxpayer hung up before being offered the survey or the contractor forgot
to offer the survey).


                                                                                            Page 13
                    The Internal Revenue Service and Contractors Are Generally
                  Following Procedures Established for the Private Debt Collection
                              Program, but Improvements Are Needed



Taxpayers who participated in the survey were satisfied with their interactions
with the PCAs
In the survey, respondents rate their satisfaction on a scale of 1 to 5, with 1 being “very
dissatisfied” and 5 being “very satisfied.” Of the survey questions, 15 related to taxpayer
satisfaction. The other questions were used to gather more information about the respondents
themselves. During the period November 27, 2006, through September 30, 2007,
3,046 taxpayers completed the taxpayer satisfaction survey that was offered to taxpayers
assigned to the 2 remaining contractors.
Taxpayers gave the two remaining contractors high marks in response to the survey questions.
The majority (96 percent) of respondents indicated that they were satisfied with the service they
received, giving an overall satisfaction rating12 of a 4 or 5 on the 5-point scale. The respondents
were most satisfied with Courtesy of Representative, Representative’s Willingness to Help With
Your Issue, and Fairness of Treatment. The average ratings for these items over the 10-month
period were 4.90, 4.88, and 4.86, respectively.
The survey consultant’s report, and our analysis of the survey data, also showed that the
respondents were least satisfied with Ease of Understanding Letters, Tone of Letters, and
Keeping You Informed on the Status of Your Case. The average ratings for these items over the
10-month period were 4.31, 4.31, and 4.50, respectively. Our discussions with the PCAs
indicated that they are evaluating improvement options for their letters.

Contractor representatives conducting collection calls are also responsible for
soliciting participation in the survey
The contractors are responsible for offering every right-party contact who called, or was called
by a contractor, an equal opportunity to participate in the survey. To assure that the survey
results are representative of the population, the selection process should ensure that each
right-party contact has an equal chance of selection, and the selection process should be free
from bias.
The Automated Collection System functions, in both the IRS Small Business/Self-Employed
Division and Wage and Investment Division, conduct a similar taxpayer satisfaction survey. In
that process, an independent IRS employee monitors calls to match the sampling pattern and
solicit taxpayer participation in the survey. As the call is approaching the end of the
conversation, the IRS monitor notifies the IRS representative that the call has been selected for
inclusion in the survey.



12
  The overall satisfaction rating represents the answer to one question on the automated survey. The question was
“Everything considered, whether you agree or disagree with the final outcome, rate your overall satisfaction with the
service you received during this call.”
                                                                                                           Page 14
                    The Internal Revenue Service and Contractors Are Generally
                  Following Procedures Established for the Private Debt Collection
                              Program, but Improvements Are Needed



The contractors were generally consistent in their overall approach for offering the survey to
right-party contacts. However, our comparison of the participation rates (i.e., those who were
asked to take the survey and accepted the opportunity to do so) showed a significant difference
between the rate achieved by the contractors and the rates achieved by both Automated
Collection System functions. For the period July 1, 2007, through September 30, 2007, the IRS
Automated Collection System functions had participation rates of 42 percent and 40 percent,
respectively. In comparison, only 14 percent (1,165 of approximately 8,115) of the right-party
contacts13 offered the survey by the contractors participated in it during this period.
Our discussion with an independent statistician indicated that the survey selection process
detracts from the credibility of the survey results. This occurs because the contractors’
representatives who conduct the collection calls are also responsible for offering the survey,
which allows the potential for discretion or discouragement in the selection process (i.e., biased
results). While our monitoring of a judgmental sample of 50 calls did not identify any calls in
which taxpayers were discouraged from taking the survey, we did identify instances in which
some right-party contacts did not have the opportunity to participate in the survey.
For comparative purposes, we reviewed the contractors’ survey tracking data for the period
July 1, 2007, through September 30, 2007. These data showed that approximately
8,115 (90 percent) of the 9,013 right-party contacts were offered the survey, and
1,165 (13 percent) right-party contacts accepted and completed the survey.
The contractors’ survey tracking data showed that approximately 898 (10 percent) of the
9,013 right-party contacts were not asked to participate in the survey. This included:
     •   Taxpayers who hung up or disconnected prior to being asked to participate in the survey
         (350 instances, 4 percent).
     •   Taxpayers who had limited English-speaking proficiency14 (189 instances, 2 percent).
     •   Other instances such as taxpayers who indicated an inconvenient time to discuss the
         account issue, taxpayers who indicated that they were driving, or technical issues in the
         ability to transfer calls to the survey line (164 instances, 2 percent).
     •   Contractor employees who forgot to ask (58 instances, 1 percent).
     •   Tracking data for one contractor that did not provide enough detail for us to determine
         why the taxpayers were not asked to take the survey (129 instances, 1 percent).


13
   The contractors maintain logs documenting the offering of surveys to right-party contacts. This process is prone
to data input errors and adversely affects the accuracy and reliability of the data. While data accuracy is a concern,
our review of a judgmental sample of 50 monitored calls found that the logs were generally sufficient for the
purpose of our tests.
14
   The taxpayer satisfaction survey is provided in English only. However, beginning in April 2008, the contractors
will also offer the survey in Spanish.
                                                                                                              Page 15
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



The consulting company that handled the survey indicated that right-party contacts who are not
asked to participate in the survey create an unknown bias in the survey because it is unknown
whether those not asked to participate would respond in the same manner as those who do
participate. The IRS indicated that plans for the survey include offering it on a random basis to
maintain the desired confidence within a tolerable error rate and distributing calls over the entire
month. In implementing this change in the sampling, the IRS could also implement a change in
the selection process that would provide that a third party–who was not substantially involved in
the contact–be responsible for offering the survey.
The Quality Unit’s random telephone monitoring includes a review element to determine
whether the survey was offered. However, when the IRS begins offering the survey on a random
basis as well, a new method will need to be developed to identify a sufficient population of calls.
This new method will need to evaluate whether the surveys are offered according to the survey
sampling plan and whether contract representatives exert no undue influence on participation in
the survey.

Recommendation
Recommendation 4: The Director, Collection, Small Business/Self-Employed Division,
should further identify and evaluate factors producing the low response rate and identify how to
improve the response rate for the taxpayer satisfaction survey. Alternatives should be researched
to obtain participation from taxpayers who hung up, got disconnected, or were not solicited for
participation. As part of the Program’s review process, the Director should require that quality
analysts routinely evaluate calls to ensure that there is no undue influence by the contract
representative when following the prescribed scripts for soliciting participation in the survey.
       Management’s Response: The IRS agreed with the recommendation. The Director,
       Collection, Small Business/Self-Employed Division, has revised the taxpayer satisfaction
       survey methodology to minimize the potential for bias by spreading the random sample
       out over each month. Also, the quality analysts’ review of telephone recordings now
       includes evaluating whether the contract representatives solicit the survey in an unbiased
       manner. The Policy and Procedures Guide has been updated to reflect these changes.
       The Director intends to form a team to explore ways to improve the survey participation
       rate.

Improvement Is Needed for Processing Certain Case Actions
We also evaluated the processing of taxpayer requests to opt out of the Program, the
establishment of installment agreements, and the referral of cases to the Taxpayer Advocate
Service (TAS). Our review identified a need for improvements in each of these areas.



                                                                                            Page 16
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



contact in the case history. Program management also added a requirement to the Referral Unit
Policy and Procedures Guide for employees to complete initial actions on an account within
5 business days of Referral Unit receipt of a written taxpayer request to opt out of the Program.
In addition, Program management added a requirement to the PCA Policy and Procedures Guide
for PCAs to issue a recall letter to a taxpayer within 5 business days from the date the PCA
receives systemic notification of the recall.

PCAs properly established installment agreements but did not always document
certain actions
Through April 28, 2007, the Program had implemented 1,471 installment agreements with
taxpayers. From this population, we selected and reviewed a random sample of 30 cases to
determine whether PCAs are following required procedures. Overall, we determined that when
PCAs determine that full payment by the taxpayer is not possible, the PCAs appropriately
established terms with the taxpayer for a mutually agreed upon installment agreement to pay the
tax liability and obtained necessary approvals from the IRS. However, our audit results showed
two areas that need management attention:
   •   In four cases, the PCA did not document in the case history whether the taxpayer was
       advised about compliance checks, as required in the PCA Policy and Procedures Guide.
       In these cases, we believe that the PCA simply forgot to follow the documentation
       procedure.
   •   In four cases, the PCA did not document in the case history whether the taxpayer was
       advised about the user fee. The PCA Policy and Procedures Guide requires the PCAs to
       advise the taxpayer about the user fee, but there is no requirement in the Guide to
       document this in the case history.
To be granted an installment agreement, a taxpayer must be in full compliance for all tax periods
other than those under consideration. If the PCA does not conduct a compliance check, and the
taxpayer is not in full compliance, the installment agreement request will be rejected. In this
event, the taxpayer will have to resolve the issue and perform additional work with the PCA to
submit another installment agreement request, thus causing the taxpayer unnecessary burden. If
the PCA does not advise the taxpayer about the installment agreement user fee, assessment of the
fee could cause confusion for the taxpayer to resolve it, resulting in unnecessary taxpayer
burden. Documenting the case history would help ensure that the taxpayer was advised.
Management Action: After we brought these issues to Program management’s attention, they
issued instructions to the contractors in January 2008 that directed contractors to remind their
employees of the requirements to conduct full compliance checks and to document this action on
the PCA systems. They also informed us that contractors will be provided with refresher training
in July 2008 that will include a lesson to reinforce these requirements. In addition, Program


                                                                                         Page 18
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



management added a requirement to the PCA Policy and Procedures Guide for PCAs to
document in their system that the taxpayer was notified of the installment agreement user fee.

Cases were not always properly coded on the TAS computer system
Since the Program was first proposed in 2002, the TAS’ role has been to ensure that taxpayer
protections applicable to IRS collection employees apply with equal force to PCA personnel.
When Program-related TAS cases are not properly coded on the TAS computer system, case
advocates are less likely to send proper notification to the COTRs to notify them of TAS
openings and closings. This limits the COTRs’ ability to direct PCAs to stop and resume
collection activity when an account is being worked by the TAS. In July 2007, we reconciled the
cases identified on the TAS computer system as Program cases with those on the IRS’ lists of
Program-related TAS cases for each PCA, as well as those on one of the PCA’s fax logs. Out of
the 549 cases, we identified 95 from the IRS’ lists and the PCA’s fax logs that were on the TAS
computer system but were not properly coded as Program cases. We discussed this issue in
general with the TAS Representative for the Program, who advised us that he or she was aware
of this issue and was already planning to conduct a reconciliation.
In August 2007, we obtained lists of Program-related TAS cases from each of the PCAs and
added them to our reconciliation. In November 2007, we rechecked the TAS computer system
and determined that the coding issue for the majority of the cases had been corrected. Out of the
652 cases, we identified 13 that were on the TAS computer system but were not properly coded
as Program cases. In addition, we identified nine cases that should not have been coded as
Program cases. We believe that these issues were caused by the lack of case advocate
experience in handling Program cases. After bringing these 22 cases to the TAS
Representative’s attention, we were informed that the coding had been corrected.
Management Action: To prevent the coding problem from continuing, management reminded
TAS employees of procedures for handling Program cases through several regularly scheduled
weekly emails. Also, in January 2008, all TAS employees were provided training that
incorporated a session on working Program cases. Additional actions the TAS intends to take
include conducting a monthly match between the TAS Representative and the COTRs, updating
and clarifying TAS procedures in the Internal Revenue Manual, and working with the Program
team to reach agreement on improving the process.
Case advocates did not always meet requirements for notifying COTRs of TAS
activity on cases
When a PCA becomes aware of TAS involvement on a particular case, the PCA is required to
put a hold on all collection activity until the IRS notifies it that collection activity can be
resumed. If the case advocates do not properly notify the COTRs of openings and closings of
Program-related TAS cases, COTRs are unable to give the PCA timely and appropriate notice to
place and release holds on taking collection action.

                                                                                         Page 19
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



Management Action: Subsequent to our review, Program management designated one analyst
to be responsible for initiating, monitoring, and reporting on Program-related TAS cases. To
ensure consistent handling of TAS cases, management designated a second analyst to serve as a
backup. On May 2, 2008, management also initiated a new process directing the designated
analyst to conduct a weekly reconciliation of referrals received from the PCAs as well as those
forwarded to the TAS. We believe that these new procedures will help ensure 1) that all
Program-related TAS cases are being tracked, and 2) the timely receipt of referrals from the
PCAs to the quality analyst and from the analyst to the TAS.




                                                                                        Page 22
                    The Internal Revenue Service and Contractors Are Generally
                  Following Procedures Established for the Private Debt Collection
                              Program, but Improvements Are Needed



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS and contractors have been
following required procedures in the Private Debt Collection Program (the Program) since
implementation on September 7, 2006. To accomplish the objective, we:
I.       Conducted various case reviews to determine whether the IRS was following procedures.
         A. Obtained a list from the Program staff that identified a population of 227 taxpayers
            who had opted out of the Program from September 7, 2006, through May 26, 2007.
            We selected a random sample1 of 30 of the 227 taxpayers and analyzed case activity
            to determine whether the IRS took appropriate actions.
         B. Obtained a list from the Program staff that identified a population of 3,177 taxpayers
            whose accounts were recalled2 to the IRS from September 7, 2006, through
            May 26, 2007. We selected a random sample of 30 of the 3,177 taxpayers and
            analyzed case activity to determine whether the IRS took appropriate actions.
         C. Obtained a list from the Program staff that identified a population of 11,562 taxpayers
            whose accounts were placed with PCAs on September 7, 2006. We selected a
            statistically valid sample3 of 73 of the 11,562 taxpayers and analyzed case
            information to determine whether the accounts met inventory selection criteria.
II.      Determined the TAS office’s status of reviewing Program referrals.
         A. Reconciled IRS, PCA, and TAS records to determine whether all referrals to the TAS
            were tracked and addressed.




1
  All random samples were selected because we did not intend to make projections based on results.
2
  See Appendix IV for a glossary of terms.
3
  We selected a statistically valid sample to project results of negative issues. The sample was based on a
confidence level of 95 percent, an expected error rate of 5 percent, and a precision of ±5 percent. We did not
identify any negative issues from this test. Therefore, no projections were made.
                                                                                                            Page 23
                   The Internal Revenue Service and Contractors Are Generally
                 Following Procedures Established for the Private Debt Collection
                             Program, but Improvements Are Needed



        C. Identified and obtained all Program-related complaints occurring between
           September 7, 2006, and August 1, 2007. We compared IRS and PCA records to
           determine whether all complaints were tracked and addressed. We obtained case file
           information from the PCAs and analyzed case activity to determine PCA compliance
           with procedures and timeliness of actions.
        D. Evaluated the complaints identified in Step IV.C. and determined whether actions
           taken were appropriate.
        E. Reviewed the performance trends identified by the IRS and the actions taken to
           address them.
V.      Evaluated the Quality Assurance Review Process and determined its effectiveness.
        A. Determined how quality analysts conduct their reviews of the PCAs (e.g., systems
           access, login required).
        B. Interviewed IRS management about the quality plan to determine:
             1. The sample required for capturing the results for the Program.
             2. The numbers of telephone calls monitored and case action reviews conducted for
                each PCA and the results of these reviews.
             3. The limitations imposed by the PCAs, if any, during the quality review process.
        C. Determined the validity and reliability of the sampling results.
        D. For each PCA that remains under contract, selected a judgmental sample6 of
           25 telephone calls with taxpayers7 and determined whether quality standards were
           met.
VI.     Evaluated the taxpayer satisfaction survey process and determined its effectiveness.
        A. Determined the process and procedures for administering the survey.
        B. Determined the process and procedures for capturing and reporting results of the
           survey.
        C. Determined the strategy and/or guidance developed to address survey results that are
           less than those expected.




6
 We selected a judgmental sample because we did not intend to make projections based on our results.
7
 Per lists obtained from the PCAs, the population of telephone calls between taxpayers and The CBE Group Inc.
was 100 on July 9, 2007. The population of telephone calls between taxpayers and Pioneer Credit Recovery, Inc.
was 154 on August 7 and 8, 2007.
                                                                                                        Page 25
                    The Internal Revenue Service and Contractors Are Generally
                  Following Procedures Established for the Private Debt Collection
                              Program, but Improvements Are Needed



VII.    Determined whether the IRS ensured that Linebarger Goggan Blair & Sampson LLP took
        appropriate actions to conclude its work on the IRS Program.
        A. Determined whether the IRS ensured that Linebarger Goggan Blair & Sampson LLP
           appropriately completed all the steps outlined in the Plan of Actions and Milestones
           document developed as part of the closeout process.
        B. Coordinated with the IRS Mission Assurance and Security Services organization to
           observe its onsite review of Linebarger Goggan Blair & Sampson LLP as part of the
           closeout process. We determined whether the IRS verified that the PCA was in
           compliance with the IRS Federal Information Security Management Act8 Contractor
           Review Sanitization and Disposal Checklist.




8
 Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002). The Federal Information Security Management Act requires
each Federal Government agency to develop, document, and implement an agency-wide information security
program to provide security for the information and information systems that support the operations and assets of the
agency.
                                                                                                           Page 26
                The Internal Revenue Service and Contractors Are Generally
              Following Procedures Established for the Private Debt Collection
                          Program, but Improvements Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl L. Aley, Director
Amy L. Coleman, Audit Manager
Todd M. Anderson, Lead Auditor
Christina M. Dreyer, Senior Auditor
Darryl R. Roth, Senior Auditor
Marcus D. Sloan, Auditor




                                                                                      Page 27
                The Internal Revenue Service and Contractors Are Generally
              Following Procedures Established for the Private Debt Collection
                          Program, but Improvements Are Needed



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Project Director, Filing and Payment Compliance Modernization, Small Business/Self-Employed
Division SE:S:C:FPCMO
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 28
                 The Internal Revenue Service and Contractors Are Generally
               Following Procedures Established for the Private Debt Collection
                           Program, but Improvements Are Needed



                                                                                   Appendix IV

                                 Glossary of Terms

Authentication Process – The contractor’s process of obtaining necessary information from the
party called or calling to be reasonably sure that the contractor is discussing the tax information
with the appropriate person. During this process, the contractor verifies the caller’s name, Social
Security Number, and address of record.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Complaint Panel – A group consisting of Private Debt Collection Program managers,
Small Business/Self-Employed Division program managers, contract specialists, and a
TAS representative. The Panel is responsible for ensuring the consistency of adjudication of
complaints, reviewing Type One complaints for trends, and reviewing Type Two and
Type Three complaints for validation purposes.
Contracting Officer’s Technical Representative – A Private Debt Collection Program
employee responsible for managing the PCA contracts and ensuring compliance with
requirements.
Full Compliance – A taxpayer is in full compliance when he or she has filed all required tax
returns and is current with withholding or payment of estimated taxes.
Installment Agreement – A method for taxpayers to pay tax liabilities by making regular
payments to the IRS over time rather than all at once.
Mission Assurance and Security Services Organization – The IRS organization that works to
assure the security and resilience of critical agency functions and business processes by assisting
in maintaining secure facilities, technology, and data.
Offer in Compromise – An agreement between the IRS and a taxpayer that settles a tax liability
for payment of less than the full amount owed.
Operation Assistance Request – A process used by the TAS to refer cases to an IRS operating
division or function to resolve a taxpayer’s problem when the TAS does not have the authority to
take the required action(s).
Plan of Actions and Milestones – A management tool used to assist organizations in
identifying, assessing, prioritizing, and monitoring the progress of corrective actions for security
weaknesses found in programs and systems.


                                                                                            Page 29
                      The Internal Revenue Service and Contractors Are Generally
                    Following Procedures Established for the Private Debt Collection
                                Program, but Improvements Are Needed



Recalled Accounts – Accounts recalled from the contractors for various reasons, including when
an accepted installment agreement extends beyond 60 months or when the IRS receives a valid
offer in compromise to pay less than the full balance due.
Referral Unit – A unit of the Private Debt Collection Program responsible for assigning cases to
contractors; maintaining cases; recalling cases; responding to inquiries from taxpayers,
contractors, and IRS staff; and handling taxpayer complaints.
Right-Party Contact – A taxpayer who confirmed his or her identity to the contractor over the
telephone.
Skip Interval – The selection of every nth case in a population to obtain a random sample.
Statistics of Income Division – A Division of the IRS that collects, analyzes, and disseminates
information on Federal taxation for the IRS in its administration of tax laws. As part of its
services, the Division assists in the quality measurement programs of the IRS.
Tax Fairness Coalition – A group comprised of ACA International member companies,
including PCAs under contract with the IRS, established for the purpose of promoting the
continuation of the Program. The ACA International is an association of professional businesses
and individuals involved in the credit and collection industry.
Taxpayer Advocate Service – An independent organization within the IRS whose employees
assist taxpayers seeking help in resolving tax problems that have not been resolved through
normal channels or who are experiencing significant hardships.
Taxpayer Delinquency Investigation – An unfiled tax return(s) for a taxpayer. One
investigation exists for all tax periods.
Type One, Type Two, and Type Three Complaint Code – A code assigned to each complaint,
based on the severity of the allegation(s). Rude behavior would be a Type One complaint,
intimidation would be a Type Two complaint, and a violation of the FDCPA1 would be a
Type Three complaint.




1
    15 U.S.C. Sections 1601 note, 1692-1692o (2000).
                                                                                         Page 30
                    The Internal Revenue Service and Contractors Are Generally
                  Following Procedures Established for the Private Debt Collection
                              Program, but Improvements Are Needed



•   Taxpayer representative issues – Taxpayer representative expresses concern about the
    clarity of IRS-approved letters sent to the representative, appropriateness of calls placed to an
    authorized representative, and/or lack of any information provided to an unauthorized
    representative (seven instances).
•   Inadvertent but unauthorized disclosure – Includes such situations as a third party
    misrepresenting himself or herself as a taxpayer of interest, misdirected mail inadvertently
    opened by contractor staff not assigned to the IRS contract, and mail machine3 stuffing
    malfunction (12 instances). The IRS considered the mail machine stuffing malfunction a
    Type Three validated complaint.
•   Other miscellaneous issues – Various taxpayer concerns related to the collection of the tax
    debt (e.g., adequacy of prior notice or the ability to secure employment due to tax debt) and
    contract concern relating to a contractor’s license status in one State (five instances). The
    IRS considered the license status a Type Three validated complaint.

One violation of the Fair Debt Collection Practices was identified
As originally enacted, the FDCPA included provisions that restricted various collection abuses
and harassment in the private sector. These restrictions did not apply to Federal Government
practices. However, Congress requires the IRS to comply with applicable portions of the
FDCPA and to be at least as considerate to taxpayers as private creditors are required to be with
their customers. The IRS Restructuring and Reform Act of 19984 required the IRS to follow Fair
Tax Collection Practices5 that are similar to the FDCPA provisions. The Treasury Inspector
General for Tax Administration is required to report Fair Tax Collection Practices violations
when the action was taken by an IRS employee involved in some type of collection activity and
the employee received some type of disciplinary action considered to be an administrative action.
Our review of civil actions related to violations of the Fair Tax Collection Practices for Calendar
Year 2006 identified five cases involving a Fair Tax Collection Practices violation for which the
IRS employee received administrative disciplinary action.6




3
  A machine used to place printed letters inside of mailing envelopes.
4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
5
  26 U.S.C. § 6304 (2004).
6
  Five Fair Tax Collection Practices Violations Resulted in Administrative Actions in Calendar Year 2006
(Reference Number 2007-10-188, dated September 21, 2007).
                                                                                                              Page 32
     The Internal Revenue Service and Contractors Are Generally
   Following Procedures Established for the Private Debt Collection
               Program, but Improvements Are Needed



                                                      Appendix VI

Management’s Response to the Draft Report




                                                             Page 34
  The Internal Revenue Service and Contractors Are Generally
Following Procedures Established for the Private Debt Collection
            Program, but Improvements Are Needed




                                                          Page 35
  The Internal Revenue Service and Contractors Are Generally
Following Procedures Established for the Private Debt Collection
            Program, but Improvements Are Needed




                                                          Page 36
  The Internal Revenue Service and Contractors Are Generally
Following Procedures Established for the Private Debt Collection
            Program, but Improvements Are Needed




                                                          Page 37
  The Internal Revenue Service and Contractors Are Generally
Following Procedures Established for the Private Debt Collection
            Program, but Improvements Are Needed




                                                          Page 38
  The Internal Revenue Service and Contractors Are Generally
Following Procedures Established for the Private Debt Collection
            Program, but Improvements Are Needed




                                                          Page 39
